HHS/OIG Audit:"Review of Urban and Rural Economic Development Grants Administered By The Coastal Enterprises, Inc. September 30, 1997 Through September 29, 2000,"(A-01-01-02506)
Department
of Health and Human Services
"Review of Urban and Rural Economic Development Grants Administered By The Coastal Enterprises, Inc. September 30,
1997 Through September 29, 2000," (A-01-01-02506)
February 26, 2002
Complete
Text of Report is available in PDF format (496 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit was performed to assess Coastal Enterprises, Inc.'s (CEI) performance in achieving project objectives and
its accountability for Federal funds.  We determined that CEI properly accounted for Federal funds.  However,
we also found that CEI had not achieved the grants employment goals by the end of the grant period (60 new jobs, with
45 targeted to low income people).  The main cause of this was that the company CEI originally cited in its grant
proposal closed down about six months after the beginning of the grant period.  By the time a replacement was found
and approved by ACF, only 4.5 months remained to the original grant period.  In that time, Kent, the replacement company
hired 18 employees, with 14 qualifying as low income.